                    Audit of Fiscal Year 2005 Forward
                       Pricing Direct Labor Rates

                                  April 2005

                     Reference Number: 2005-1C-059




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                             April 4, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Fiscal Year 2005 Forward Pricing Direct Labor Rates
                              (Audit #20051C0216)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       October 11, 2004, direct labor forward pricing rates for the period of August 1, 2004,
       through July 31, 2005. The purpose of the examination was to determine the
       reasonableness of the proposed direct labor forward pricing rates.
       The DCAA considers the contractor’s accounting system to be inadequate in part for
       segregating, accumulating, and reporting Federal Government contracts costs. The
       DCAA also stated that the budget and planning system is inadequate to ensure the
       proposed rates and escalation factors are based on current, accurate, and complete
       cost and pricing data.
       The DCAA opined that the direct labor category rate data submitted by the offeror are
       adequate. However, the DCAA took exception on two direct labor category rates.
       According to the DCAA, the audit disclosed no exceptions to the remaining proposed
       direct labor category rates for the period August 1, 2004, through July 31, 2005, or to
       grouping of employees into labor categories.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2

If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
